                                                                Issue Date
                                                                       March 1, 2011
                                                                
                                                                Audit Report Number
                                                                       2011-KC-1002




TO:         Donald J. Lavoy, Deputy Assistant Secretary for Field Operations, PQ

            //signed//
FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 7AGA


SUBJECT: The East St. Louis, IL Housing Authority Drew Capital Funds for Unsupported
           and Ineligible Expenses


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the East St. Louis Housing Authority’s (Authority) Public Housing
             Capital Fund program. We selected the Authority for an audit based upon a
             citizen complaint that the Authority drew down capital funds without adequate
             support. Our audit objective was to determine whether the Authority had proper
             support for its capital fund draws.

 What We Found

             The Authority drew down grant funds for ineligible items and without adequate
             support. Specifically, it made unsupported draws, excessive administration
             draws, draws for force account labor without prior approval, draws above the
             invoiced amount, and duplicate draws. As a result, the U.S. Department of
             Housing and Urban Development (HUD) had no assurance that $171,687 in
             capital funds was properly spent.
What We Recommend


           We recommend that HUD require the Authority to provide adequate support for
           the $90,534 drawn for unsupported costs or repay the funds. Additionally, we
           recommend that HUD require the Authority to repay the $81,153 in ineligible
           draws and calculate and repay additional ineligible draws outside our audit period.
           Finally, we recommend that HUD require the Authority to develop and implement
           procedures for assembling and maintaining adequate documentation before
           submitting vouchers.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the draft report to the Authority on December 17, 2010, and held an
           exit conference on December 22, 2010. The Authority provided its written
           response, dated January 4, 2011, and generally disagreed with our audit findings,
           primarily our assertion that the Authority needed to support its use of the
           management fee. After further review, we agree with the Authority’s position and
           have removed this part of the finding from our final report.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objective                                                         4

Results of Audit
      Finding: The Authority Drew $171,687 in Unsupported and Ineligible Costs   5
      From Its Capital Fund Grants

Scope and Methodology                                                            9

Internal Controls                                                                10

Appendixes
   A. Schedule of Questioned Costs                                               11
   B. Auditee Comments and OIG’s Evaluation                                      12
   C. Ineligible and Unsupported Costs Detail                                    19




                                            3
                      BACKGROUND AND OBJECTIVE

The East St. Louis Housing Authority (Authority) provides housing to low-income families, the
elderly, and people with disabilities in St. Clair County, IL. The Authority operates 22
developments consisting of 2,073 public housing units.

The Authority has been under an administrative receivership with the U.S. Department of
Housing and Urban Development (HUD) since 1985. Administrative receivership is a process
whereby HUD declares a public housing authority in substantial default of its annual
contributions contract and takes control of the authority. For the Authority, a HUD
representative who works in the Chicago Office of Public Housing acts as the board.

The Authority receives annual formula-based funding under HUD’s Public Housing Capital
Fund program. These funds may be used for development, financing, modernization, and
management improvements. HUD awarded the Authority more than $3 million under the
program each year between 2005 and 2009. The Authority draws its capital fund grants from
HUD by submitting vouchers to HUD’s Line of Credit Control System. During the period
January 1 through December 31, 2009, the Authority drew down nearly $2.2 million from the
2005 through 2008 grants.

HUD’s regulations for the program are established at 24 CFR (Code of Federal Regulations)
Parts 905 and 968.

Our audit objective was to determine whether the Authority had proper support for its capital
fund draws.




                                                4
                                RESULTS OF AUDIT

Finding: The Authority Drew $171,687 in Unsupported and Ineligible
Costs From Its Capital Fund Grants
The Authority drew down grant funds for ineligible items and without adequate support. It had
inadequate internal controls, and management circumvented the normal process in an attempt to
meet the disbursement deadline. As a result, HUD had no assurance that $171,687 in capital
funds was properly spent.


 Unsupported and Ineligible
 Draws

              The Authority drew down grant funds for ineligible items and without adequate
              support. Specifically, it made unsupported draws, excessive administration
              draws, draws for force account labor without prior approval, draws above the
              invoiced amount, and duplicate draws.

              Unsupported Draws
              The Authority submitted its final draw from the 2005 capital fund without first
              ensuring that it had related expenses to assign to that draw. Instead of compiling
              supporting expenses and requesting that amount, it requested the entire remaining
              balance of the grant.

              In addition, of the 48 vouchers the Authority submitted during 2009, 4 included
              expenses that were not adequately supported. These expenses were supported by
              internal Authority documents, such as journal entries or pay requests, but without
              source documents such as invoices. Regulations at 24 CFR 85.20 require that
              grantees maintain records which adequately identify the source and application of
              funds. Accounting records must be supported by such source documentation as
              cancelled checks, paid bills, payrolls, time and attendance records, and contract
              and subgrant award documents.

              Administration Draws
              The Authority made excessive administration draws from the 2008 capital fund.
              It drew for administration expenses related to an intern after the full 10 percent
              administration limitation had been reached.

              Unapproved Force Account Labor Draws
              The Authority drew for force account labor costs without prior approval. Force
              account labor is defined as labor provided by Authority employees. HUD’s
              regulations state that an authority may undertake capital fund activities using
              force account labor only when specifically approved by HUD in its budget or



                                               5
           annual statement. The Authority used force account labor to install air
           conditioning cages using 2006 and 2008 program year funds without obtaining
           HUD approval. The Authority’s annual plan for fiscal year 2008 included the air
           conditioner cages, which it purchased through an invitation for bid during the
           summer of 2008. However, the plan did not specify that these cages would be
           installed using force account labor. These labor costs included salaries paid to the
           employees, employer-funded taxes, and Estamp benefits payments made to the
           local carpenters’ union on behalf of these employees.

           Draw Exceeding Invoiced Amounts
           The Authority drew capital funds to pay a contractor more than the amount of the
           contractor’s invoice. In two instances, it recalculated the vendor’s invoice to a
           higher amount. The recalculations were to add 25 percent profit and overhead to
           the supervisor’s pay. The Authority then drew down and paid that higher amount.
           It is not a standard business practice to increase the amount of a contractor’s
           invoice.

           Duplicate Draws
           The Authority drew for the same invoices and salary costs more than once. In one
           case, it drew for the same unit turnover invoice twice before later identifying the
           duplication and correcting for it by offsetting a future draw. In other cases, it
           drew for the construction inspector’s salary and benefits for the same pay period
           more than once and did not identify the duplications.

           The Authority also made duplicate draws for employee benefits. It drew capital
           funds to pay employee benefit costs that had already been funded through
           employee payroll deductions and other draws against the capital fund for the
           employer-funded portions. Specifically, when it drew salary and benefits for each
           biweekly pay period, the draw included the employer portion of health benefits.
           Then the Authority duplicated this request when it drew for payments that it made
           to the health, vision, and dental insurance companies.


Inadequate Controls


           The Authority had inadequate internal controls, and management circumvented
           the normal process in an attempt to meet the disbursement deadline.

           The Authority had inadequate internal controls to ensure proper draws. It did not
           have written policies and procedures related to capital fund disbursements. It also
           did not have a standardized method for compiling and maintaining source
           documentation to support each expense included on each voucher. In addition,
           the system in place during our audit period did not prevent entry of the same
           invoice number more than once. The disorganized state of the draw
           documentation allowed the Authority to lose track of which invoices it had



                                            6
           claimed on previous vouchers. Further, the Authority did not monitor how much
           it had drawn by line item to avoid exceeding its budget.

           In addition, the Authority’s management circumvented the normal process in an
           attempt to meet the disbursement deadline. While the amount to be claimed was
           typically determined by adding up the expenses to charge to the capital fund, in
           one case, the Authority requested the remaining grant balance without considering
           what expenses it might have to assign to the voucher.

$171,687 Improperly Drawn

           HUD had no assurance that $171,687 in capital funds was properly spent. See the
           following table showing the improper amounts drawn in 2009.

              Capital      Unsupported      Ineligible               Description
             fund year       amount          amount
             2005-2008         $90,534                    Missing source documentation
               2008                              $3,992   Administration draw exceeding
                                                          the 10 percent limitation
             2006/2008                          $58,127   Force account labor and benefits
               2007                               $300    Payments above the invoiced
                                                          amount
             2005/2008                           $4,382   Duplicate draws for construction
                                                          inspector salary
             2005-2008                          $14,352   Duplicate draws for construction
                                                          inspector benefits
            Total                $90,534        $81,153

           While the attempted final draw for the 2005 capital fund is not included in the
           unsupported and ineligible amounts listed above, it had a negative impact.
           Because the request was submitted 1 day after the disbursement cutoff for the
           grant, HUD did not disburse the funds and flagged the voucher for review. The
           Authority then determined that it could only support part of the amount requested,
           so HUD disbursed the amount that it could support. The Authority’s failure to
           prepare its drawdown request properly led to the forfeiture of the remaining $500
           that could have been used to improve its housing stock.

           The majority of the unsupported amount that was missing source documentation
           related to a single draw in February 2009. During our audit, the Authority
           attempted to support the draw and determined that it could not support more than
           $80,000. Therefore, it offset this amount against a July 2010 draw.

           Regulations at 24 CFR 905.120 require the Authority to obligate its capital funds
           within 24 months after they are made available. The Authority must forfeit any
           amounts exceeding 10 percent of the original award not obligated by the deadline.


                                            7
          In addition, it must expend the entire grant within 48 months. Since these
          unsupported and ineligible costs relate to older grant years that have reached
          obligation and disbursement deadlines, the Authority stands to forfeit more of its
          capital funds as a result of this finding.

Recommendations


          We recommend that the Deputy Assistant Secretary for Field Operations require
          the Authority to

          1A. Provide support for the $90,534 drawn for unsupported costs or return the
              funds to HUD subject to the 90 percent limitation on the obligation period
              and repay the remaining amount to the project from non-Federal funds. This
              support includes verifying that the Authority appropriately reimbursed the
              $80,716 via voucher 092-519938.

          1B. Return the $81,153 in ineligible draws to HUD subject to the 90 percent
              limitation on the obligation period and repay the remaining amount to the
              project from non-Federal funds.

          1C. Identify the amounts drawn for unapproved force account labor and benefits
              and for duplicate health, vision, and dental insurance expenses outside our
              audit period and return the funds to HUD subject to the 90 percent limitation
              on the obligation period and repay the remaining amount to the project from
              non-Federal funds.

          1D. Develop and implement procedures to assemble and maintain adequate
              documentation before submitting vouchers.




                                           8
                        SCOPE AND METHODOLOGY

To accomplish our audit objective, we

   Interviewed HUD and Authority staff;
   Reviewed independent public accountant reports;
   Reviewed the Authority’s policies and procedures; and
   Reviewed Federal regulations, HUD handbooks, and HUD notices.

To perform our review, we obtained reports from HUD’s Line of Credit Control System to
identify the amount of each voucher submitted by the Authority during 2009. Each voucher
represented a drawdown request from the Authority against the specified year’s capital fund
grant. We analyzed the data and concluded that the data were sufficiently reliable for our
purposes of sample selection. We compiled the amounts of the vouchers from January 1 through
December 31, 2009, from the program years 2005 through 2008 capital fund grants. In 2009, the
Authority submitted 52 vouchers totaling more than $2.3 million and received disbursements for
48 of the vouchers totaling more than $2.1 million (the remaining 4 vouchers were cancelled).

We reviewed the supporting documentation for each of the 48 paid vouchers. We reviewed
whether each item included in the draw was supported by proper documentation and whether
each item was an allowable expense under the Public Housing Capital Fund program. We also
compared the items across the different draws to determine whether the same expense was
requested for reimbursement more than once.

We performed our audit between March and October 2010 at the Authority’s office at 700 North
20th Street, East St. Louis, IL. Our audit generally covered the period January 1 through
December 31, 2009.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objective:

                     Controls to ensure proper capital fund draw requests.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


 Significant Deficiency


               Based on our review, we believe that the following item is a significant deficiency:

                     The Authority did not have adequate internal controls over its capital fund
                      draws.




                                                 10
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                    Recommendation            Ineligible 1/    Unsupported
                           number                                       2/
                                  1A                               $90,534
                                  1B              $81,153


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             11
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         12
Ref to OIG Evaluation   Auditee Comments



Comment 1



Comment 2

Comment 3




Comment 4




Comment 5




                         13
Ref to OIG Evaluation   Auditee Comments




Comment 6




Comment 7




Comment 8




                         14
Ref to OIG Evaluation   Auditee Comments




Comment 9




Comment 10




                         15
Ref to OIG Evaluation   Auditee Comments




Comment 11




                         16
                         OIG Evaluation of Auditee Comments

Comment 1   After further review, we agree with the Authority’s position. We have removed
            the unsupported management fee from the finding.

Comment 2   The Authority submitted additional documentation, including a copy of the
            payment bond and subcontractor invoices, supporting the draw of $162,765.
            Considering this additional documentation, we removed this portion of the
            finding.

Comment 3   We clarified in the report that $80,716 was offset against a future voucher outside
            our audit period. While we did not review this voucher as part of our audit, we
            noted that it included significant amounts for force account labor as well as
            invoices that were more than 2 years old. Accordingly, HUD should review this
            documentation to ensure that the offset represents appropriate repayment. The
            appropriateness of a significant portion of the offset is dependent upon HUD’s
            decision regarding the Authority’s use of force account labor as discussed in
            comment 6.

Comment 4   HUD should verify that the Authority properly returned the funds.

Comment 5   In addition to the $501 error referenced in the Authority’s comments, we
            identified 18 ineligible duplicate items totaling $5,309 included in the support the
            Authority provided for the voucher in question. These duplicate amounts are
            included in the totals in the report and are made up of payroll periods previously
            drawn in other vouchers, benefit periods previously drawn in other vouchers, and
            employee benefits funded through employee and employer contributions included
            in other salary and benefit draws from the capital fund. There was also an item
            unsupported by source documentation; this item is also included in the report.

Comment 6   We disagree with the Authority that since the work was not performed by regular
            maintenance crew it should not be classified as force account labor. Regulations
            at 24 CFR 968.105 define force account labor as “Labor employed directly by the
            PHA [public housing agency] on either a permanent or a temporary basis”;
            therefore, the Authority need not employ the workers permanently for them to
            classified as force account labor. The Authority accounted for the wages and
            benefits of these laborers in the same manner as it did for its other full-time staff,
            as these workers filled out, signed as “employee,” and submitted timecards to the
            Authority and were included on the Authority’s Labor Distribution Report by
            Department by Employee.

            Further, documentation related to the procurement of the physical cages estimates
            the total cost of the project “using manufacturing from the low bidder and
            installation from ESLHA [Authority] carpenters” and lists the names of the two
            carpenters that are disputed by the Authority as force account labor. Additionally,
            in an internal Recommendation to Award Contract document, dated July 22,



                                              17
              2008, the Authority stated “we have decided to consider the price of
              manufacturing only and allow the Housing Authority employees to execute
              installation.” The recommendation was approved by the executive director on
              July 25, 2008.

Comment 7     On the invoices in which the Authority recalculated the vendor’s invoice to a
              higher amount, the Authority did not correct mathematical errors made by the
              vendor. Instead, it applied overhead and profit percentages to line items excluded
              by the vendor on the original invoice.

Comment 8     We contend that the Authority must verify amounts to be drawn to ensure that it
              does not draw for the same expenses more than once.

Comment 9     The assertion that the Authority detected duplicate benefits and that the period
              was a matter of “several months” contradicts the events that transpired during the
              audit. The Authority’s accountant provided us with a spreadsheet indicating that
              some benefits were being charged to the capital fund as late as July 2010, the
              latest date on the spreadsheet. If management detected the duplicate draws before
              being notified by us, it did nothing to return the ineligible duplicates. We
              recommend that HUD require the Authority to identify duplicate benefit payments
              outside our audit period and return the funds; the $14,352 indicated in the report
              and the Authority’s comments represent only the amount of duplicates occurring
              during our audit period and, therefore, do not fulfill the recommendation.

Comment 10 As stated in comment 1, we have removed the management fee from our finding.
           Accordingly, we removed the language about the Authority’s misunderstanding
           the requirements.

Comment 11 The “Policy and Procedures for Processing Modernization Pay Request” provided
           to us by the Authority covered only submission of payments from the Authority to
           its vendors and made no reference to capital fund draw requests. We do not
           believe this policy to be sufficient to ensure proper draw requests.




                                              18
Appendix C
     INELIGIBLE AND UNSUPPORTED COSTS DETAIL
                                                 Unsupported expenses
 Fund year Voucher number                  Amount                                    Description
    2006          092-448931                     $3,815.99                   No source documentation
    2006          092-448931                      $417.54                    No source documentation
    2006          092-448931                   $80,716.07                          See OIG note 1
    2006          092-448931                        $39.99                   No source documentation
    2006          092-448931                     $1,700.00                   No source documentation
    2007          092-477852                      $751.60                    No source documentation
    2007          092-487873                     $2,287.00                   No source documentation
    2008          092-487874                      $794.95                    No source documentation
    2005          092-489495                        $10.59                   No source documentation
                                               $90,533.73
OIG note 1: This draw for $113,366 was made in February 2009 and included a note, dated March 2009, stating that
there was an incorrect calculation and the amount should not have been drawn. While we were conducting our audit,
in July 2010, the Authority attempted to support $109,133 of this amount by compiling expenses. It compiled $28,417
in expenses (which we reviewed and found $17,875 in ineligible force account expenses, $1,740 unsupported, and
$8,802 supported). The Authority showed the remaining $80,716 as a reduction to a voucher submitted in July 2010,
but we were not assured that this was proper. The voucher on which it was offset was outside our audit period and
contained ineligible force account labor/benefit charges and two large charges for invoices dated in 2008. Since these
were also outside our audit period, we do not know whether those expenses were previously drawn.

                                               Administration draw
Fund year     Voucher number               Amount                                    Description
  2008          092-490794                    $3,992.00                        Intern – see OIG note 2
                                              $3,992.00
OIG note 2: $3,992 was charged to line item 1410 in excess of the 10 percent budget maximum.

                                       Payments above the invoiced amount
Fund year     Voucher number           Overpayment                                  Description
  2007          092-490978                    $100.01                              See OIG note 3
  2007          092-490978                    $200.00                              See OIG note 3
                                              $300.01
OIG note 3: When the Authority recalculated these invoices, it moved the supervisor’s pay of $400 and $800 from
where the contractor placed it below the subtotal to above the subtotal to apply the 25 percent profit and overhead to
the supervisor's pay, resulting in overpayments compared to the invoiced amount.

                                          Force account labor and benefits
Fund year     Voucher number              Amount                                     Description
  2006          092-331138                      $151.80     PPE* 12/24/08                 Force account labor
  2006          092-331138                      $789.30       PPE 12/24/08                Force account labor
  2006          092-331138                    $1,062.52       PPE 12/24/08                Force account labor
  2006          092-331138                      $424.97       PPE 12/24/08                Force account labor
  2006          092-331138                    $1,942.87       PPE 12/31/08                Force account labor
  2006          092-442087                      $971.43        PPE 1/07/09                Force account labor
  2006          092-442087                      $971.44        PPE 1/07/09                Force account labor
  2006          092-445463                    $1,607.48        PPE 1/14/09                Force account labor
  2006          092-445463                      $546.43        PPE 1/14/09                Force account labor



                                                         19
Fund year     Voucher number            Amount                                  Description
  2006          092-445463                   $274.68           PPE 1/14/09           Force account labor
  2006          092-445463                   $971.43           PPE 1/21/09           Force account labor
  2006          092-445463                   $485.72           PPE 1/21/09           Force account labor
  2006          092-445463                   $485.72           PPE 1/21/09           Force account labor
  2006          092-445463                   $485.71           PPE 1/28/09           Force account labor
  2006          092-445463                   $242.86           PPE 1/28/09           Force account labor
  2006          092-445463                   $242.86           PPE 1/28/09           Force account labor
  2006          092-445463                   $728.58           PPE 1/28/09           Force account labor
  2006          092-445463                   $728.58           PPE 1/28/09           Force account labor
  2006          092-446838                 $1,214.29           PPE 2/04/09           Force account labor
  2006          092-446838                 $1,214.30           PPE 2/04/09           Force account labor
  2006          092-447425                   $607.14           PPE 2/11/09           Force account labor
  2006          092-447425                   $607.15           PPE 2/11/09           Force account labor
  2006          092-447425                   $242.86           PPE 2/11/09           Force account labor
  2006          092-447425                   $485.72           PPE 2/11/09           Force account labor
  2006          092-447425                   $485.72           PPE 2/11/09           Force account labor
  2006          092-448131                   $728.58           PPE 2/18/09           Force account labor
  2006          092-448131                   $728.58           PPE 2/18/09           Force account labor
  2006          092-448131                   $485.71           PPE 2/18/09           Force account labor
  2006          092-449054                   $698.71           PPE 2/25/09           Force account labor
  2006          092-449054                   $637.03           PPE 2/25/09           Force account labor
  2006          092-449054                 $1,092.85           PPE 2/25/09           Force account labor
  2006          092-451388                   $485.71           PPE 3/05/09           Force account labor
  2006          092-451388                   $182.15           PPE 3/05/09           Force account labor
  2006          092-451388                   $182.15           PPE 3/05/09           Force account labor
  2006          092-451388                   $971.44           PPE 3/05/09           Force account labor
  2006          092-451388                   $121.43           PPE 3/05/09           Force account labor
  2006          092-451388                   $485.71           PPE 3/05/09           Force account labor
  2006          092-451388                 $2,428.59           PPE 3/11/09           Force account labor
  2006          092-462007                    $15.43           PPE 4/29/09           Force account labor
  2008          092-462007                   $485.71           PPE 4/29/09           Force account labor
  2006          092-448131                 $6,699.89         4/2008 per GL             Benefits/Estamps
  2006          092-448131                 $2,910.89         3/2008 per GL             Benefits/Estamps
  2006          092-448131                 $2,884.66         4/2008 per GL             Benefits/Estamps
  2008          092-448931                 $2,983.68          December-08              Benefits/Estamps
  2006          092-448931                 $3,646.72            January-09             Benefits/Estamps
  2006          092-448931                 $3,149.44           February-09             Benefits/Estamps
  2006          092-448931                 $3,315.20             March-09              Benefits/Estamps
  2006          092-448931                 $1,191.58               May-09              Benefits/Estamps
  2006          092-448931                 $1,332.66               June-09             Benefits/Estamps
  2006          092-448931                 $2,256.00           PPE 6/17/09             Benefits/Estamps
  2006          092-487874                    $55.32          PPE 10/21/09             Benefits/Estamps
                                          $58,127.38
*PPE = pay period ending;
OIG note 4: The force account labor costs were supported by timesheets signed by the employee and his supervisor
and the payroll register.




                                                      20
                             Duplicate draws for construction inspector salary
Fund year   Voucher number           Amount                                 Description
  2008      092-487874                    $1,728.66    PPE 10/23/09      Included on this same voucher twice
                                                                         Already drawn on voucher 092-
  2005      092-489495                    $1,728.65     PPE 5/3/09       462007
                                                                         Already drawn on voucher 092-
  2005      092-489495                       $81.31     PPE 4/5/09       455852
                                                                         Already drawn on voucher 092-
  2005      092-489495                     $116.16      PPE 5/3/09       462007
                                                                         Already drawn on voucher 092-
  2005      092-489495                     $268.37      PPE 4/5/09       455852
                                                                         Already drawn on voucher 092-
  2005      092-489495                     $383.38      PPE 5/3/09       462007
                                                                         Already drawn on vouchers 092-
  2005      092-489495                       $43.22     PPE 5/17/09      462424 and 092462427
                                                                         Already drawn on vouchers 092-
  2005      092-489495                       $10.80     PPE 5/17/09      462424 and 092462427
                                                                         Already drawn on vouchers 092-
  2005      092-489495                       $21.61     PPE 5/17/09      462424 and 092462427
                                          $4,382.16

                          Duplicate draws for construction inspector benefits
Fund year   Voucher number         Amount                                Description
  2007      092-445465                    $76.27 1/1/09-1/31/09       Dental insurance
  2007      092-445465                    $10.61 1/1/09-1/31/09       Vision insurance
  2007      092-446839                 $1,199.47 2/01/09-2/28/09      Health insurance
  2007      092-446839                      $4.94 2/1/09-02/28/09     Vision insurance
  2007      092-447426                 $1,199.47 1/01/09-1/31/09      Health insurance
  2007      092-447426                    $10.61 1/1/09-1/31/09       Vision insurance
  2008      092-451390                 $1,199.47 3/1/09 - 3/31/09     Health insurance
  2008      092-451390                    $76.27 3/01/09 - 3/31/09 Dental insurance
  2008      092-451390                      $4.94 3/01/09 - 3/31/09 Vision insurance
  2008      092-456849                 $1,199.47 4/1/09 - 4/30/09     Health insurance
  2008      092-456849                    $76.27 4/1/09 - 4/30/09     Dental insurance
  2008      092-456849                      $4.94 4/1/09 - 4/30/09    Vision insurance
  2008      092-462007                 $1,199.47 5/1/09 - 5/31/09     Health insurance
  2008      092-462007                      $4.94 5/1/09 - 5/31/09    Vision insurance
  2008      092-463632                    $76.27 6/01/09 - 6/30/09 Dental insurance
  2008      092-463632                    $10.61 6/01/09 - 6/30/09 Vision insurance
  2008      092-487874                 $1,199.47 APCK 292070          Health insurance
  2008      092-487874                    $76.27 APCK 292067          Dental insurance
  2008      092-487874                    $10.61 APCK 292071          Vision insurance
  2008      092-487874                 $1,199.47 11/1/2009            Health insurance
  2008      092-487874                    $10.61 11/1/2009            Vision insurance
  2008      092-487874                    $10.61 12/4/2009            Vision insurance
  2005      092-489495                 $1,199.47 5/01/09-5/30/09      Health insurance
  2005      092-489495                    $76.27                       Dental insurance
  2005      092-489495                      $4.94 5/1/09-5/30/09      Vision insurance
  2005      092-489495                 $1,199.47 6/01/09-6/30/09      Health insurance
  2005      092-489495                    $76.27                       Dental insurance
  2005      092-489495                    $10.61 6/01/09-6/30/09      Vision insurance
  2008      092-490794                 $1,199.47 12/01-12/30/09       Health insurance


                                                  21
Fund year     Voucher number            Amount                                   Description
  2007        092-490978                   $1,635.62                           Health insurance
  2005        092-489495                      $23.83       5/1/09 Insurance already drawn in 092-462007
  2005        092-489495                      $20.46       5/1/09 Insurance already drawn in 092-462007
  2005        092-489495                      $23.83       6/1/09 Insurance already drawn in 092-467141
  2005        092-489495                      $20.46       6/1/09 Insurance already drawn in 092-467141
                                          $14,351.76
OIG note 5: These benefits were funded by employee payroll deductions as well as employer-funded benefits that
were drawn along with the inspector’s payroll.




                                                      22
